No._________
IN THE

SUPREME COURT OF THE UNITED STATES
___________
DAMON WOODARD,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
___________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit
__________________________________________
APPENDIX
__________________________________________

ROBERT DAVID MALOVE
The Law Office of
Robert David Malove, P.A.
633 South Andrews Ave., Suite 102
Fort Lauderdale, FL 33301
(954) 861-0384
Counsel of Record
Attorney for Petitioner
Member of the Supreme Court Bar

INDEX OF APPENDICES
Appendix A
Amended Motion to Vacate, Set-Aside, or Correct Sentence pursuant to 28
U.S.C. § 2255, United States District Court for the Southern District of
Florida Civ. Case No. 0:19-cv-62289-WPD
Appendix B
Order Denying Amended Motion to Vacate, Set-Aside, or Correct Sentence
pursuant to 28 U.S.C. § 2255, United States District Court for the Southern
District of Florida Civ. Case No. 0:19-cv-62289-WPD
Appendix C
Motion for Clarification, United States District Court for the Southern
District of Florida Civ. Case No. 0:19-cv-62289-WPD
Appendix D
Order Denying Motion for Clarification, United States District Court for the
Southern District of Florida Civ. Case No. 0:19-cv-62289-WPD
Appendix E
Application for COA, United States Court of Appeals for the Eleventh
Circuit, Case No. 19-14896-B
Appendix F
Order Denying Application for COA, United States Court of Appeals for the
Eleventh Circuit, Case No. 19-14896-B

Appendix A
Amended Motion to Vacate, Set-Aside, or Correct Sentence pursuant to
28 U.S.C. § 2255, United States District Court for the Southern District
of Florida Civ. Case No. 0:19-cv-62289-WPD

Case 0:19-cv-62289-WPD Document 6 Entered on FLSD Docket 09/19/2019 Page 1 of 9

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
(Fort Lauderdale Division)
UNITED STATES OF AMERICA,
Plaintiff,
Case No. 0:19-cv-62289-WPD
(0:18-cr-60065-WPD)

v.
DAMON WOODARD,
Defendant.
_____________________________/

Judge: DIMITROULEAS

AMENDED MOTION TO VACATE, SET-ASIDE OR CORRECT SENTENCE
COMES NOW the Defendant, DAMON WOODARD, by and through
undersigned counsel and pursuant to 28 U.S.C. § 2255, and moves this Honorable
Court for an Order vacating and setting-aside the sentence in the above-styled cause.
In support, Defendant submits the following:
1. Defendant was charged by indictment with four (4) counts of Hobbs Act
robbery, in violation of 18 U.S.C. § 1951, and four (4) counts of brandishing a
firearm during and in relation to the Hobbs Act robberies, in violation of 18 U.S.C.
§ 924(c)(1)(A)(ii).
2. Attorney Herbert Erving Walker, III, 7601 E. Treasure Dr., Apt. 1907,
Miami Beach, FL 33141, represented Defendant during all relevant stages of the
proceedings.
3. On June 29, 2018, Defendant entered an open plea of guilty to the § 924(c)
violations alleged in Count 2 (brandishing a firearm in relation to Count 1), and

Case 0:19-cv-62289-WPD Document 6 Entered on FLSD Docket 09/19/2019 Page 2 of 9

Count 4 (brandishing a firearm in relation to Count 3). The government dismissed
the remaining counts. Sentencing was deferred pending preparation of a presentence
investigation report (PSI).
4. On September 10, 2018, in accordance with the requirements of §
924(c)(1)(C)(i) (2017), this Court imposed a mandatory minimum sentence totaling
32 years, which consisted of a 7-year term as to Count 2, followed by a consecutive
term of 25 years as to Count 4.
5. Defendant did not take an appeal because the plea agreement contained an
express appellate waiver.
6. This motion is timely filed in accordance with § 2255(f).
GROUND FOR RELIEF
DEFENDANT’S 25-YEAR CONSECUTIVE SENTENCE IS
UNLAWFUL WHERE THE TERM “SECOND OR SUBSEQUENT
CONVICTION” CONTAINED IN 18 U.S.C. § 924(c)(1)(C) (2017) IS
VAGUE AND AMBIGUOUS AS TO WHETHER SAID TERM
PERMITS AN ENHANCED SENTENCE FOR MULTIPLE
COUNTS CONTAINED IN A SINGLE INDICTMENT. DUE
PROCESS REQUIRES THE TERM BE CONSTRUED IN A LIGHT
MOST FAVORABLY TO THE DEFENDANT. RECENT
CONGRESSIONAL AMENDMENTS TO THE STATUTE
“CLARIFIED” LEGISLATIVE INTENT THAT THE TERM
ACTUALLY REFERS TO A VIOLATION WHICH OCCURS
AFTER A PRIOR § 924(c) CONVICTION HAS BECOME FINAL.
ARGUMENT
Defendant argues his consecutive 25-year sentence, imposed for being a
“second or subsequent conviction” for brandishing a firearm in relation to a crime
2

Case 0:19-cv-62289-WPD Document 6 Entered on FLSD Docket 09/19/2019 Page 3 of 9

of violence pursuant to 18 U.S.C. § 924(c)(1)(C)(i) (2017), is unlawful and must be
vacated, where Defendant is a first-time offender who has never been previously
convicted of a § 924(c) offense.
Defendant entered an open plea to Counts 2 and 4 of the indictment, which
charged him with possessing a firearm in relation to a crime of violence, contrary to
§ 924(c)(1)(A)(ii). That section provides for imposition of a mandatory minimum
sentence of 7 years if the firearm was brandished. Id. However, because Defendant
was to be sentenced for two counts of violating § 924(c), he was subject to
consecutive, 7-year mandatory minimum terms totaling 14 years. § 924(c)(1)(D)
(“Notwithstanding any other provision of law- (ii) no term of imprisonment imposed
on a person under this subsection shall run concurrently with any other term of
imprisonment imposed on the person…).
Notwithstanding that Defendant was only subject to consecutive, 7-year
mandatory minimum terms totaling 14 years, this Court on September 10, 2018,
sentenced Defendant to a 7-year term as to Count 2, followed by a consecutive 25year term as to Count 4, for a total mandatory minimum term of 32 years.
Presumably, this Court imposed the consecutive 25-year term for Count 4 in
accordance with § 924(c)(1)(C) which provided, inter alia:
In the case of a second or subsequent conviction under this subsection,
the person shall(i) be sentenced to a term of imprisonment of not less than 25 years
3

Case 0:19-cv-62289-WPD Document 6 Entered on FLSD Docket 09/19/2019 Page 4 of 9

Id. (emphasis added).
Defendant submits that he is a first-time offender who has never previously
been convicted of a § 924(c) offense. Therefore, under the statutory framework, §
924(c)(1)(C) was inapplicable to Defendant and he should only have been subject
to two, consecutive 7-year terms totaling 14 years. Consequently, Defendant’s
consecutive 25-year sentence for Count 4 is unlawful and he is entitled to be
resentenced.
To the extent that the term “second or subsequent conviction” contained in §
924(c)(1)(C) could be interpreted to permit a consecutive 25-year sentence where
multiple counts are contained in a single indictment, the Defendant submits that the
statute is vague and ambiguous and must be construed in a manner which most
favors him under the rule of lenity.
The Fifth Amendment provides that “[n]o person shall . . . be deprived of life,
liberty, or property, without due process of law.” It is well established that the
government violates this guarantee by taking away someone’s life, liberty, or
property under a criminal law so vague that it fails to give ordinary people fair notice
of the conduct it punishes, or so standardless that it invites arbitrary enforcement.
Kolender v. Lawson, 461 U.S. 352, 357-358, 103 S. Ct. 1855, 75 L. Ed. 2d 903
(1983). The prohibition of vagueness in criminal statutes “is a well-recognized
requirement, consonant alike with ordinary notions of fair play and the settled rules
4

Case 0:19-cv-62289-WPD Document 6 Entered on FLSD Docket 09/19/2019 Page 5 of 9

of law,” and a statute that flouts it “violates the first essential of due process.”
Connally v. General Constr. Co., 269 U.S. 385, 391, 46 S. Ct. 126, 70 L. Ed. 322
(1926).
Importantly, these principles apply not only to statutes defining elements of
crimes, but also to statutes fixing sentences. Johnson v. United States, __ U.S. __,
135 S. Ct. 2551, 192 L. Ed. 2d 569 (2015); United States v. Batchelder, 442 U.S.
114, 123, 99 S. Ct. 2198, 60 L. Ed. 2d 755 (1979).
Moreover, the rule of lenity is based upon the traditional policy of fair warning
“of what the law intends to do if a certain line is passed” and upon “‘the instinctive
distaste against men languishing in prison unless the lawmaker has clearly said they
should.’” United States v. Bass, 404 U.S. 336, 348 (1972) (quoting H. Friendly, Mr.
Justice Frankfurter and the Reading of Statutes, in Benchmarks 196, 209 (1967)).
The Supreme Court’s “long-established practice of resolving questions concerning
the ambit of a criminal statute in favor of lenity . . . reflects not merely a convenient
maxim of statutory construction,” but rather “is rooted in fundamental principles of
due process.” Dunn v. United States, 442 U.S. 100, 112 (1979).
Sub judice, the term “second or subsequent conviction” contained in §
924(c)(1)(C) is susceptible of differing interpretations. Arguably, it could be
interpreted to mean a second finding of guilt during a single proceeding issued from

5

Case 0:19-cv-62289-WPD Document 6 Entered on FLSD Docket 09/19/2019 Page 6 of 9

a single indictment, or it could mean recidivism - a sequential conviction after an
initial conviction has achieved finality.
Long ago, the 10th Circuit Court of Appeals sitting en banc construed §
924(c)(1)(C) and determined the phrase “second or subsequent conviction” was
vague and ambiguous. The court applied the rule of lenity and concluded the statute
should be interpreted to require sequential convictions:
[W]e conclude that section 924(c) must be strictly construed.
Moreover, because the text of the statute and its legislative history
reveal an ambiguity concerning the construction Congress intended to
give the words “second or subsequent conviction,” we must apply the
rule of lenity. Under this rule, the words “second or subsequent” mean
events that are chronologically sequential, and “conviction” means
judgment of conviction. Accordingly, we hold that a defendant may not
receive an enhanced sentence under section 924(c) for a second or
subsequent conviction unless the offense underlying this conviction
took place after a judgment of conviction had been entered on the prior
offense. We believe this construction is mandated by the applicable
rules of statutory construction, is consistent with the other subsequentoffense statutes enacted by Congress, and best effectuates the purpose
underlying such statutes generally.
United States v. Abreu, 962 F. 2d 1447, 1453 (10th Cir. 1992).
As it turns out, however, the 10th Circuit’s reasoning in Abreu was not popular
among sister courts and the question eventually found its way to the Supreme Court
in Deal v. United States, 508 U.S. 129, 113 S. Ct. 1993, 124 L. Ed. 2d 44 (1993).
The High Court rejected the recidivism-based interpretation extended by the 10th
Circuit and held that the statute permitted enhanced, consecutive sentences - even

6

Case 0:19-cv-62289-WPD Document 6 Entered on FLSD Docket 09/19/2019 Page 7 of 9

for first-time offenders - for multiple § 924(c) offenses brought in a single
indictment.
Fast forward to December of 2018, when Congress passed the First Step Act.
Included in this new legislation was a provision intended to clarify the draconian
interpretation of § 924(c)(1)(C) handed down by the Deal Court:
Sec. 403 Clarification of section 924(c) of title 18, United States Code
(a) In general. Section 924(c)(1)(C) of title 18, United States Code, is
amended, in the matter preceding clause (i), by striking “second or
subsequent conviction under this subsection” and inserting “violation
of this subsection that occurs after a prior conviction under this
subsection has become final.”
Pub. L. 115-391, § 403(a), 132 Stat. 5221 (emphasis added).
As the title suggests, the new amendment serves to clarify what the legislative
intent of the provision was all along - i.e., that it serves to punish recidivism. This is
further evidenced by the following commentary provided by the Senate Committee
on the Judiciary:
Reforming Federal Criminal Sentencing
Clarification of 18 U.S.C. § 924(c) – S.1917 Section 104 applied
prospectively: This section clarifies that the enhanced mandatory
minimum sentence for using a firearm during a crime of violence or
drug crime is limited to offenders who have previously been convicted
and served a sentence for such an offense. Previously the courts
interpreted this law intended for repeat offenders as applying also to
first-time offenders, sometimes requiring courts to impose overly harsh,
decades-long sentences for charges brought in a single indictment.
S. 3649 First Step Act Summary - As Introduced. (emphasis added).
7

Case 0:19-cv-62289-WPD Document 6 Entered on FLSD Docket 09/19/2019 Page 8 of 9

In other words, the Deal Court got it wrong. Consequently, this
misinterpretation of arguably the harshest sentencing provision in the entire body of
law has resulted in numerous de facto life sentences imposed for first-time offenders.
Congress has now clarified § 924(c)(1)(C) to be consistent with its original intent as
a recidivist statute - the same conclusion reached earlier by the 10th Circuit in Abreu.
“Subsequent legislation declaring the intent of an earlier statute is entitled to
great weight,” and “the construction of a statute by those charged with its execution
should be followed unless there are compelling indications that it is wrong.” Red
Lion Broadcasting Co. v. F.C.C., 395 U.S. 367, 380-81, 89 S. Ct. 1794, 1801-02, 23
L. Ed. 2d 371 (1969). To the extent that the original intent of § 924(c)(1)(C) has now
been “clarified” by Congress in the First Step Act, Defendant respectfully suggests
that the Deal decision should be revisited by the High Court.
CONCLUSION
This Court sentenced Defendant to serve 7 years in prison for Count 2,
followed by an additional 25 years in Count 4, even though he was a first-time
offender and both of the § 924(c) violations were brought in a single indictment.
Because the term “second or subsequent conviction” is vague and ambiguous, due
process requires that this Court apply the rule of lenity, vacate the unlawful 25-year
sentence imposed in Count 4, and resentence Defendant to a consecutive 7-year
mandatory minimum term for a total of 14 years.
8

Case 0:19-cv-62289-WPD Document 6 Entered on FLSD Docket 09/19/2019 Page 9 of 9

Respectfully submitted,
The Law Office of
ROBERT DAVID MALOVE, PA.
200 S. Andrews Avenue, Suite 100
Fort Lauderdale, Florida 33301
rdm@robertmalovelaw.com
(954) 861-0384
By: Isl Robert David Malave
Robert David Malove, Esq.
Florida Bar No.: 407283

OATH
I HEREBY DECLARE under penalty of perjury that the facts stated herein
are true and correct.

QM xJ;u,f2 "f1AL .: AU/{:)
Damon Woodard, Defendant

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that this document was electronically filed with this
Court's CM/ECF filing system on September 1 9,
.. 2019, and that all parties were
effectively served thereby.

Isl Robert David Malave
Robert David Malove, Esq.

9

Appendix B
Order Denying Amended Motion to Vacate, Set-Aside, or Correct
Sentence pursuant to 28 U.S.C. § 2255, United States District Court for
the Southern District of Florida Civ. Case No. 0:19-cv-62289-WPD

Case 0:19-cv-62289-WPD Document 11 Entered on FLSD Docket 10/08/2019 Page 1 of 3

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
DAMON N. WOODARD,

CASE NO. 19-62289-CIV-DIMITROULEAS
(18-60065-CR-DIMITROULEAS)

Movant,
vs.
UNITED STATES OF AMERICA,
Respondent.
_______________________________________/
FINAL JUDGMENT AND ORDER DISMISSING AND DENYING
MOTIONS TO VACATE
THIS CAUSE is before the Court on Movant Woodard’s September 16, 2019 Motion to Vacate
[DE-1], Memorandum [DE-3] and his September 19, 2019 Amended Complaint [DE-7]. The court has
considered the Government’s September 20, 2019 Response [DE-9], and Court file, and having presided
over this case, finds as follows:
1. On March 15, 2018, Woodard and Suwayne Hylton were indicted. [CR-DE-8]. Woodard was
charged with four (4) counts of Hobbs Act Robbery and four (4) counts of Brandishing a Firearm during a
Crime of Violence.
2. On June 29, 2018, Woodard pled guilty to two (2) counts of Brandishing a Firearm during a
Crime of Violence (Counts Two and Four) [CR-DE-34], pursuant to a Plea Agreement [CR-DE-35]. There
was a Factual Proffer Statement [CR-DE-36]. Woodward understood that there was a consecutive
mandatory minimum 32 year sentence involved [CR-DE-59, pp. 7-19, 22, 28, 37]; [CR-DE-35, p. 2]. He
waived his right to an appeal. A Pre-Sentence Investigation Report was ordered. The PSIR indicated that
a minimum sentence of 32 years was required. No objections to the PSIR were filed.
3. On September 7, 2018, Woodard was sentenced to 32 years in prison. [CR-DE-52].
4. The Government has conceded that the motion to vacate is timely filed. [DE-9, p. 3].

Case 0:19-cv-62289-WPD Document 11 Entered on FLSD Docket 10/08/2019 Page 2 of 3

5. In the first motion to vacate, Woodward contended that counsel was ineffective for failing to
file an appeal. Second, Woodard contended that the consecutive nature of the stacked mandatory
minimum is illegal. Third, Woodard contended that the First Step Act applies to his sentencing. Fourth,
Woodard contended that counsel was ineffective in allowing a second consecutive sentence of 25 years,
instead of 20 years.
6. In the second motion to vacate, filed by separate counsel, Woodard contends that he should
be resentenced to fourteen (14) years in prison.
7. The Court agrees with the Government that the First Step Act does not apply to stacked
mandatory minimum sentences, imposed before December 21, 2018. See U.S. v. Robinson, 2019 WL
4463272 (E.D. Mich. 2019); Brown v. Antonelli, 2019 WL 2358977 (D.S.C. 2019); Richmond v. Burnhart,
2019 WL 2127304 (E.D. Ky. 2019).
8. By filing the Amended Complaint, Woodard has waived his other previously filed objections.
See Pintando v. Miami-Dade Housing Authority, 501 F. 3d 1241, 1243 (11th Cir. 2007).
Wherefore, Woodward’s Motions to Vacate [DE-1] and [DE-7] are Dismissed and Denied,
respectively.
The Clerk shall close this case and deny any pending motions as Moot.
DONE AND ORDERED in Chambers at Fort Lauderdale, Broward County, Florida, this 8th day of
October, 2019.

United States District Judge
Copies furnished to:
Counsel of Record

Case 0:19-cv-62289-WPD Document 11 Entered on FLSD Docket 10/08/2019 Page 3 of 3

Appendix C
Motion for Clarification, United States District Court for the Southern
District of Florida Civ. Case No. 0:19-cv-62289-WPD

Case 0:19-cv-62289-WPD Document 12 Entered on FLSD Docket 10/08/2019 Page 1 of 3

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
(Fort Lauderdale)
DAMON N. WOODARD,
Movant,
v.

Case No. 0:19-cv-62289-WPD
(0:18-cr-60065-WPD)

UNITED STATES OF AMERICA,
Respondent.
_____________________________/
MOTION FOR CLARIFICATION
COMES NOW the Movant, DAMON N. WOODARD, by and through
undersigned counsel and pursuant to Local Rule 7.1, and moves this Honorable
Court for clarification of its Final Judgment and Order Dismissing and Denying
Motions to Vacate (DE. 11), entered on October 8, 2010. In support, the Movant
submits the following:
1. This cause is before the Court on Movant’s amended motion to vacate, setaside or correct sentence (DE. 7), filed pursuant to 28 U.S.C. § 2255. The amended
§ 2255 motion raises a single claim arguing that the version of 18 U.S.C. §
924(c)(1)(C) which the Movant was sentenced under is vague and overbroad in
violation of due process.
2. Although the Movant made reference to the changes brought to §
924(c)(1)(C) by passage of the First Step Act of 2018 (“Act”), the Movant was not

Case 0:19-cv-62289-WPD Document 12 Entered on FLSD Docket 10/08/2019 Page 2 of 3

actually seeking retroactive application of the Act to his case. Rather, the Movant
argued that passage of the Act as a self-titled “Clarification of section 924(c)” gave
credence to his position that the version of the statute he was sentenced under was
vague and has been misinterpreted from its inception.
3. In its Final Judgment and Order Dismissing and Denying Motions to
Vacate, this Court concluded in paragraph 7:
The Court agrees with the Government that the First Step Act does not
apply to stacked mandatory minimum sentences, imposed before
December 21, 2018. See U.S. v. Robinson, 2019 WL 4463272 (E.D.
Mich. 2019); Brown v. Antonelli, 2019 WL 2358977 (D.S.C. 2019);
Richmond v. Burnhart, 2019 WL 2127304 (E.D. Ky. 2019).
4. To the extent it appears that this Court may have misinterpreted the
Movant’s § 2255 claim as one seeking retroactive application of the Act, the Movant
asks this Court for clarification of its Order denying relief. Specifically, the Movant
asks that the Court address the due process component of the § 2255 claim so as to
provide clarity for appellate purposes.
WHEREFORE, the Movant respectfully asks for clarification of its October
8, 2019, Final Judgment and Order Dismissing and Denying Motions to Vacate.
Respectfully submitted,
The Law Office of
ROBERT DAVID MALOVE, PA.
200 S. Andrews Avenue, Suite 100
Ft. Lauderdale, Florida 33301
rdm@robertmalovelaw.com
(954) 861-0384
2

Case 0:19-cv-62289-WPD Document 12 Entered on FLSD Docket 10/08/2019 Page 3 of 3

By: /s/ Robert David Malove
Robert David Malove, Esq.
Florida Bar No.: 407283

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that this document was electronically filed with this
Court’s CM/ECF system on October 8, 2019, and that all parties were effectively
served thereby.
/s/ Robert David Malove
Robert David Malove, Esq.

3

Appendix D
Order Denying Motion for Clarification, United States District Court for
the Southern District of Florida Civ. Case No. 0:19-cv-62289-WPD

Case 0:19-cv-62289-WPD Document 13 Entered on FLSD Docket 10/09/2019 Page 1 of 1

UNITED STATES DISTRICT COURT
SOUTHERN DISTIRCT OF FLORIDA
DAMON N. WOODARD,

CASE NO. 19-62289-CIV-DIMITROULEAS
(18-60065-CR-DIMITROULEAS)

Movant,
vs.
UNITED STATES OF AMERICA,
Respondent.
___________________________________________/
ORDER
THIS CAUSE is before the Court on Defendant Woodard’s October 8, 2019 Motion For
Clarification. [DE-12]. Congress does not declare statutes to be vague. They can repeal them. They can
enact new statutes and give them retroactivity. The Court finds no due process violation. The Motion
[DE-12] is Denied. The Court denies a Certificate of Appealabilty.
DONE AND ORDERED in Chambers at Fort Lauderdale, Broward County, Florida, this 9th day of
October, 2019.

Copies furnished to:
Robert David Malone, Esquire
Alicia Shick, AUSA

Appendix E
Application for COA, United States Court of Appeals for the Eleventh
Circuit, Case No. 19-14896-B

Case: 19-14896

Date Filed: 01/13/2020

Page: 1 of 13

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
______
APP. CASE NO. 19-14896-B
LT. CASE NO. 0:19-cv-62289-WPD
______

DAMON WOODARD,
Petitioner/Appellant,
Vs.

UNITED STATES OF AMERICA,
Respondent/Appellee.

______

AMENDED APPLICATION FOR A CERTIFICATE OF
APPEALABILITY FROM AN ORDER OF THE DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF FLORIDA, DENYING
APPELLANT’S 28 U.S.C. § 2255 MOTION
______

Robert David Malove, Esq.
Counsel for Appellant
The Law Office of
ROBERT DAVID MALOVE, P.A.
200 S. Andrews Avenue, Suite 100
Ft. Lauderdale, FL. 33301

Case: 19-14896

Date Filed: 01/13/2020

Page: 2 of 13

CERTIFICATE OF INTERESTED PERSONS (CIP)
Damon Woodard v. United States of America, Appeal No. 19-14896-B

Anton, Jodi
Dimitrouleas, William P.
Gomez, Kathryn
Hunt, Patrick M.
Shick, Alicia
Walker, Herbert E.
White, Charles G.

2

Case: 19-14896

Date Filed: 01/13/2020

Page: 3 of 13

INTRODUCTION
The Appellant, DAMON WOODARD, by and through undersigned counsel
and pursuant to Federal Rule of Appellate Procedure 22(b), applies to this Court for
issuance a Certificate of Appealability (COA). The order sought to be reviewed is
an order from the United States District Court for the Southern District of Florida
(Fort Lauderdale), denying Appellant’s motion to vacate, set-aside or correct
sentence filed under 28 U.S.C. § 2255. This Court has jurisdiction to issue a COA
pursuant to 28 U.S.C. § 2253(a), (c).
STATEMENT OF CASE AND FACTS
Appellant was charged by indictment with four (4) counts of Hobbs Act
robbery, in violation of 18 U.S.C. § 1951, and four (4) counts of brandishing a
firearm during and in relation to the Hobbs Act robberies, in violation of 18 U.S.C.
§ 924(c)(1)(A)(ii). (Crim. Doc. 8)
On June 29, 2018, Appellant entered an open plea of guilty to the § 924(c)
violations alleged in Count 2 (brandishing a firearm in relation to Count 1), and
Count 4 (brandishing a firearm in relation to Count 3). The government dismissed
the remaining counts. Sentencing was deferred pending preparation of a presentence
investigation report (PSI).
On September 10, 2018, in accordance with the requirements of §
924(c)(1)(C)(i) (2017), the district court imposed a mandatory minimum sentence

3

Case: 19-14896

Date Filed: 01/13/2020

Page: 4 of 13

totaling 32 years, which consisted of a 7-year term as to Count 2, followed by a
consecutive term of 25 years as to Count 4 (Crim. Doc. 52). Appellant did not take
an appeal because the plea agreement contained an express appellate waiver.
In December of 2018, Congress passed the First Step Act (“the Act”). Section
403(a) of the Act, titled “Clarification of section 924(c) of title 18, United States
Code,” provides, inter alia:
(a) In general. Section 924(c)(1)(C) of title 18, United States Code, is
amended, in the matter preceding clause (i), by striking “second or
subsequent conviction under this subsection” and inserting “violation
of this subsection that occurs after a prior conviction under this
subsection has become final.”
Pub. L. 115-391, § 403(a), 132 Stat. 5221.
Appellant thereafter filed an amended1 motion to vacate, set-aside and correct
sentence pursuant to 28 U.S.C. § 2255 on September 18, 2019 (Civ. Doc. 1). In that
motion, Appellant raised a single claim alleging that his 25-year consecutive
sentence imposed as to Count 4 is unlawful, where the term “second or subsequent
conviction” contained in the version of § 924(c)(1)(C) applicable to him is vague
and ambiguous as to whether said term permits an enhanced sentence for multiple
counts contained in a single indictment. Appellant argued that passage of the Act,
wherein Congress amended § 924(c) to “clarify” legislative intent, supports his

1

Appellant initially filed a motion to vacate, set-aside and correct sentence pursuant to 28 U.S.C.
§ 2255 on September 15, 2019. Appellant subsequently retained new counsel, who prepared and
filed an amended § 2255 motion on Appellant’s behalf.

4

Case: 19-14896

Date Filed: 01/13/2020

Page: 5 of 13

position that the previous version of the statute is vague and ambiguous. Appellant
acknowledged that the United States Supreme Court’s decision in Deal had
previously foreclosed his argument. Nevertheless, Appellant proposed that Deal
should be revisited in light of the new legislation, which suggests that the Deal Court
misinterpreted legislative intent.
The government filed a response to the amended § 2255 motion on September
26, 2019 (Civ. Doc. 9). The government argued that the changes to § 924(c) brought
by the Act do not apply retroactively and that Appellant was attempting to apply the
Act in a way Congress did not intend.
On October 8, 2019, the district court entered its final judgment and order
dismissing and denying motions to vacate (Civ. Doc. 11). The district court made
the following finding:
The Court agrees with the Government that the First Step Act does not
apply to stacked mandatory minimum sentences, imposed before
December 21, 2018. See U.S. v. Robinson, 2019 WL 4463272 (E.D.
Mich. 2019); Brown v. Antonelli, 2019 WL 2358977 (D.S.C. 2019);
Richmond v. Burnhart, 2019 WL 2127304 (E.D. Ky. 2019).
Appellant thereafter filed a motion (Civ. Doc. 12) seeking to clarify that he
was not seeking retroactive application of the Act. Rather, Appellant was directly
attacking the prior version of § 924(c) which he was sentenced under as being vague
and ambiguous.

5

Case: 19-14896

Date Filed: 01/13/2020

Page: 6 of 13

The district court issued an order denying the motion for clarification on
October 9, 2019. The district court found:
THIS CAUSE is before the Court on Defendant Woodard’s October 8,
2019 Motion For Clarification. [DE-12]. Congress does not declare
statutes to be vague. They can repeal them. They can enact new statutes
and give them retroactivity. The Court finds no due process violation.
The Motion [DE-12] is Denied. The Court denies a Certificate of
Appealabilty.
This appeal timely follows.
STANDARD OF REVIEW
A court will issue a certificate of appealability (COA) “only if the applicant
has made a substantial showing of the denial of a constitutional right.” See, 28 U.S.C.
§ 2253(c)(2). To satisfy this standard, a petitioner must show that it is debatable
among reasonable jurists that the district court’s assessment of the claim was wrong.
See, Slack v. McDaniel, 529 U.S. 473, 120 S.Ct. 1595, 1604, 146 L.Ed.2d 542
(2000). A claim can be “debatable” even though every jurist of reason might agree,
after the COA has been granted and the case has received full consideration, that
petitioner will not prevail. See, Miller-El v. Cockrell, 537 U.S. 322, 123 S.Ct. 1029,
1041, 154 L.Ed.2d 931 (2003).
ARGUMENT
REASONABLE JURISTS COULD DEBATE WHETHER DUE
PROCESS REQUIRES COURTS TO APPLY THE RULE OF
LENITY AND CONSTRUE 18 U.S.C. § 924(c)(1)(C) (2017) IN THE
MANNER MOST FAVORABLY TO THE ACCUSED.

6

Case: 19-14896

Date Filed: 01/13/2020

Page: 7 of 13

Title 18 U.S.C. § 924(c) (2017) provides for mandatory minimum sentencing
when a defendant carries or brandishes a firearm during the commission of a drug
crime or a crime of violence. The punishment becomes increasingly more severe in
the event of a “second or subsequent” such conviction. Section 924(c)(1)(C)
provides, inter alia:
In the case of a second or subsequent conviction under this subsection,
the person shall(i) be sentenced to a term of imprisonment of not less than 25 years
Id. (emphasis added).
Appellant argued in his amended § 2255 motion that the term “second or
subsequent conviction” contained in the statute could reasonably be interpreted two
ways: (1) to permit a consecutive 25-year sentence where multiple counts are
contained in a single indictment; or (2) recidivism - a sequential § 924(c) conviction
after an initial such conviction has already achieved finality. Because the statute is
susceptible of differing interpretations, Appellant argued the statute is vague and
ambiguous and must be construed in a manner which most favors him under the rule
of lenity.
Appellant has never previously been convicted of a § 924(c) offense.
Accordingly, a favorable interpretation of § 924(c)(1)(C) so as to require sequential
§ 924(c) convictions would render that subsection inapplicable to him as a first-time
offender. Under this scenario, Appellant would be subject to two consecutive 7-year
7

Case: 19-14896

Date Filed: 01/13/2020

Page: 8 of 13

terms totaling 14 years, rather than the aggregate 32-year term (7-years followed by
a 25-years) he ultimately received.
In support of his argument, Appellant referenced Congress’ recent passage of
the First Step Act, which included legislation intended to “clarify” § 924(c)(1)(C).
The relevant provision reads:
Sec. 403 Clarification of section 924(c) of title 18, United States Code
(a) In general. Section 924(c)(1)(C) of title 18, United States Code, is
amended, in the matter preceding clause (i), by striking “second or
subsequent conviction under this subsection” and inserting “violation
of this subsection that occurs after a prior conviction under this
subsection has become final.”
Pub. L. 115-391, § 403(a), 132 Stat. 5221 (emphasis added).
Appellant further referenced the following commentary to the amendment
provided by the Senate Committee on the Judiciary:
Reforming Federal Criminal Sentencing
Clarification of 18 U.S.C. § 924(c) – S.1917 Section 104 applied
prospectively: This section clarifies that the enhanced mandatory
minimum sentence for using a firearm during a crime of violence or
drug crime is limited to offenders who have previously been convicted
and served a sentence for such an offense. Previously the courts
interpreted this law intended for repeat offenders as applying also to
first-time offenders, sometimes requiring courts to impose overly harsh,
decades-long sentences for charges brought in a single indictment.
S. 3649 First Step Act Summary - As Introduced. (emphasis added).
Appellant argued that the changes brought by the Act indicates that Congress
has determined the construction given to § 924(c)(1)(C) by the Supreme Court in
8

Case: 19-14896

Date Filed: 01/13/2020

Page: 9 of 13

Deal v. United States, 508 U.S. 129, 113 S. Ct. 1993, 124 L.Ed.2d 44 (1993), does
not accurately reflect legislative intent. See e.g., United States v. Robinson, 2019 WL
4463272, at *1 (E.D. Mich. Sept. 18, 2019) (The First Step Act reversed Deal’s
requirement that courts stack a defendant’s sentence where the defendant is
convicted of two § 924(c) convictions that are charged in the same indictment).
Accordingly, Appellant reasoned that Congress has now clarified § 924(c)(1)(C) to
be consistent with its true intent as a recidivist statute and suggested that Deal is ripe
to be revisited by the High Court.
In denying the amended § 2255 motion and the motion for clarification, the
district court merely stated that, “Congress does not declare statutes to be vague.
They can repeal them. They can enact new statutes and give them retroactivity. The
Court finds no due process violation.” (Civ. Doc. 13).
Reasonable jurists can debate whether the district court wrongly decided the
claim. The district court conducted no analysis to determine whether § 924(c)(1)(C)
was ambiguous and, if so, whether Appellant was entitled to the rule of lenity.
The Fifth Amendment provides that “[n]o person shall . . . be deprived of life,
liberty, or property, without due process of law.” It is well established that the
government violates this guarantee by taking away someone’s life, liberty, or
property under a criminal law so vague that it fails to give ordinary people fair notice
of the conduct it punishes, or so standardless that it invites arbitrary enforcement.

9

Case: 19-14896

Date Filed: 01/13/2020

Page: 10 of 13

Kolender v. Lawson, 461 U.S. 352, 357-358, 103 S. Ct. 1855, 75 L. Ed. 2d 903
(1983). The prohibition of vagueness in criminal statutes “is a well-recognized
requirement, consonant alike with ordinary notions of fair play and the settled rules
of law,” and a statute that flouts it “violates the first essential of due process.”
Connally v. General Constr. Co., 269 U.S. 385, 391, 46 S. Ct. 126, 70 L. Ed. 322
(1926).
Importantly, these principles apply not only to statutes defining elements of
crimes, but also to statutes fixing sentences. Johnson v. United States, __ U.S. __,
135 S. Ct. 2551, 192 L. Ed. 2d 569 (2015); United States v. Batchelder, 442 U.S.
114, 123, 99 S. Ct. 2198, 60 L. Ed. 2d 755 (1979).
The rule of lenity is based upon the traditional policy of fair warning “of what
the law intends to do if a certain line is passed” and upon “‘the instinctive distaste
against men languishing in prison unless the lawmaker has clearly said they
should.’” United States v. Bass, 404 U.S. 336, 348 (1972) (quoting H. Friendly, Mr.
Justice Frankfurter and the Reading of Statutes, in Benchmarks 196, 209 (1967)).
The Supreme Court’s “long-established practice of resolving questions concerning
the ambit of a criminal statute in favor of lenity . . . reflects not merely a convenient
maxim of statutory construction,” but rather “is rooted in fundamental principles of
due process.” Dunn v. United States, 442 U.S. 100, 112 (1979).

10

Case: 19-14896

Date Filed: 01/13/2020

Page: 11 of 13

Sub judice, the term “second or subsequent conviction” contained in §
924(c)(1)(C) is susceptible of differing interpretations. Arguably, it could be
interpreted to mean a second finding of guilt during a single proceeding issued from
a single indictment, or it could mean recidivism - a sequential conviction after an
initial conviction has achieved finality. Congress has recently clarified that it means
the latter.
Consequently, that means the (rather draconian) interpretation of §
924(c)(1)(C) handed down by the Deal Court was incorrect. Yet, for the numerous
defendants like Appellant who were sentenced before passage of the Act, there
appears to be no recourse but to have the High Court revisit the question of whether
the prior version of § 924(c)(1)(C) is vague and ambiguous, and whether due process
requires the statute be interpreted most favorably to the accused. See Patterson v.
McLean Credit Union, 485 U.S. 617, 99 L. Ed. 2d 879, 108 S. Ct. 1419 (1988) (“It
is surely no affront to settled jurisprudence to request argument on whether a
particular precedent should be modified or overruled.”).
The prior version of § 924(c)(1)(C) is vague and ambiguous, as evidenced by
Congress’ need to “clarify” legislative intent through passage of the Act.
“Subsequent legislation declaring the intent of an earlier statute is entitled to great
weight,” and “the construction of a statute by those charged with its execution should
be followed unless there are compelling indications that it is wrong.” Red Lion

11

Case: 19-14896

Date Filed: 01/13/2020

Page: 12 of 13

Broadcasting Co. v. F.C.C., 395 U.S. 367, 380-81, 89 S. Ct. 1794, 1801-02, 23 L.
Ed. 2d 371 (1969).
Here, the district court at minimum should have examined the prior version
of § 924(c)(1)(C) and determined whether the recent amendments to the statute and
the commentary to the passage of the Act present “compelling indications” that the
statute has been misinterpreted all along. The district court should have further
determined whether due process requires the statute be construed in a light most
favorably to Appellant. The district court did neither.
Accordingly, reasonable jurists could debate whether the district court’s
assessment of the issue was wrong and this Court should grant a COA.
Respectfully submitted,
The Law Office of
ROBERT DAVID MALOVE, P.A.
200 S. Andrews Avenue, Suite 100
Ft. Lauderdale, Florida 33301
rdm@robertmalovelaw.com
(954) 861-0384
By: /s/ Robert David Malove
Robert David Malove, Esq.
Florida Bar No.: 407283

12

Case: 19-14896

Date Filed: 01/13/2020

Page: 13 of 13

CERTIFICATE OF COMPLIANCE
I HEREBY CERTIFY that this document complies with the type-volume
requirements as set-forth in Federal Rule of Appellate Procedure 32(a). The length
of this document is 2,489 words.
/s/ Robert David Malove
Robert David Malove, Esq.

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that this document was filed with this Court’s CM/ECF
filing system on January 13, 2020, and that all parties were effectively served
thereby.

/s/ Robert David Malove
Robert David Malove, Esq.

13

Appendix F
Order Denying Application for COA, United States Court of Appeals
for the Eleventh Circuit, Case No. 19-14896-B

Case: 19-14896

Date Filed: 04/17/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

April 17, 2020
Clerk - Southern District of Florida
U.S. District Court
400 N MIAMI AVE
MIAMI, FL 33128-1810
Appeal Number: 19-14896-B
Case Style: Damon Woodard v. USA
District Court Docket No: 0:19-cv-62289-WPD
Secondary Case Number: 0:18-cr-60065-WPD-1
The enclosed copy of this Court's order denying the application for a Certificate of
Appealability is issued as the mandate of this court. See 11th Cir. R. 41-4. Counsel and pro se
parties are advised that pursuant to 11th Cir. R. 27-2, "a motion to reconsider, vacate, or modify
an order must be filed within 21 days of the entry of such order. No additional time shall be
allowed for mailing."
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Craig Stephen Gantt, B
Phone #: 404-335-6170
Enclosure(s)
DIS-4 Multi-purpose dismissal letter

Case: 19-14896

Date Filed: 04/17/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-14896-B
________________________
DAMON WOODARD,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
ORDER:
Damon Woodard moves for a certificate of appealability in order to appeal the denial of
his motion to vacate his sentence, 28 U.S.C. § 2255. His motion is DENIED because he has failed
to make a substantial showing of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2).

/s/ Britt C. Grant
UNITED STATES CIRCUIT JUDGE

